Pricing Information
In effect as of 07/01/2020
INTERESTS RATES AND
INTEREST CHARGES
Annual Percentage Rate
(APR) For Purchases

7.90% TO 17.90%, based on your creditworthiness.
This APR will vary with the market based on the prime rate.

APR for Balance Transfers

9.90% TO 17.90%, based on your creditworthiness.
This APR will vary with the market based on the prime rate.

APR for Cash Advances

9.90% TO 17.90%
This APR will vary with the market based on the prime rate.

Penalty Pricing and When It
Applies

None

Paying Interest

Your Due Date is at least 25 days after the close of each billing cycle. We will
not charge you any interest on purchases if you pay your entire balance by the
due date each month. We will begin charging interest on cash advances and
balance transfers on the transaction date.

Minimum Interest Charge

If you are charged interest, the charge will be not less than $2.00.

For Credit Card Tips
from The Bureau of
Consumer Financial
Protection

To learn more about factors to consider when applying for or using a
credit card, visit the website of the Bureau of Consumer Financial
Protection at http://www.consumerfinance.gov/learnmore

FEES
Annual Fee

$0.00

Transaction Fees
• Balance Transfer Fee

$0.00

•

Cash Advance Fee

Either $10.00 or 2.000% of the amount of each cash advance, whichever is
greater.

•

Foreign Transaction
Fee

2% of each foreign transaction in U.S. dollars

Penalty Fees
Up to $25.00
• Late Payment Fee
• Over-The-Credit Limit $0.00
Fee
• Returned Payment Fee Up to $25.00
How We Will Calculate Your Balance: We use the average daily balance (including new purchases). This
method is explained in the Cardholder Agreement.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights are
provided in the Cardholder Agreement.
Minimum Payment: Your minimum payment will be 2% of your current balance or $15.00, whichever is
greater, unless your balance is less than $15.00. If your balance is less than $15.00, then your minimum
payment will be the amount of your statement balance. Any amount that is past due will also be added to
the minimum monthly payment amount.
1

Replacement Cards, Copies and Special Services:
Statement Copy Fee:
$5.00
Rush Fee: $35.00
Emergency Card Replacement Fee:
Up To: $200.00
Research Fee: $25.00 per hour
VARIABLE RATE:
Your variable APR may change quarterly if the Prime Rate changes. Any change to your APR will take effect on
the first statement cycle after the beginning of the next quarter. Calendar quarters begin January 1, April 1, July
1, and October 1 of each year.
We calculate variable rates by adding a percentage (also called a margin) to the Prime Rate published in the
Money Rates section of The Wall Street Journal 30 days before the end of the quarter. If the Wall Street Journal
stops publishing the Prime Rate, we will choose a similar reference rate based upon comparable information.
Any increase in the Prime Rate may increase your interest charges and your minimum payment. The current
Prime Rate plus the percentage applicable to you is the rate reflected in your Account Opening Disclosure.

2

